No. 20-1012

In the Supreme Court of the United States
CHARLES GUENTHER, PETITIONER

v.
LOCKHEED MARTIN CORPORATION, ET AL.

CERTIFICATE OF SERVICE
I, Nicole A. Saharsky, counsel for Lockheed Martin Corporation and Lockheed Martin
Corporation Retirement Plan for Certain Salaried Employees, hereby certify that on
this 29th day of March, 2021, I caused the brief in opposition to be served by email
on the following counsel:
Andrew Field Pierce
Pierce & Shearer LLP
2055 Woodside Road, Suite 110
Redwood City, CA 94061
(650) 842-8480
apierece@pierceshearer.com

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

